Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICAID PAYMENTS OF PREMIUMS

 FOR EMPLOYER GROUP HEALTH

          INSURANCE





                    @ SERVICI$
              ~’+                ~$v
          +

         2W
                                       JUNE    GIBBS BROWN

         5

         .
<
         s

                                       Inspector    General

           ‘6
 $
            %’                                  MAY 1994
              +%’.j~~
               >                              OEI-O4-91-O1O5O
                      OFFICE       OF INSPECTOR            GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                            OFFICE     OF AUDIT        SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing-audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                            OFFICE     OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE        OF EVALUATION             AND     INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


ATWINTA REGION                                                       HEADQUARTERS


Betty Apt, Project Leader                                            Cathaleen Ahern

Joe Townsel                                                          Wm. Mark Krushat, SC.D.

Peggy Daniel
Jacqueline Andrews

For additional copies of this report, please contact the Atlanta Regional Office at 404-331 -
5022.
              EXECUTIVE                          SUMMARY
PURPOSE

To determine the extent State Medicaid     agencies pay employer      group health          plan
insurance premiums for Medicaid-eligible    individuals.

BACKGROUND

Expenditures   for Medicaid benefits have grown dramatically in recent years. From
Calendar Year 1989 through 1991, Federal and State spending rose 49 percent,
increasing from $59 billion to $88 billion.

The rate of growth in Medicaid expenditures is a major concern to both Federal and
State governments.    Both areseeking ways to curb spending.    Onemethodis    to pay
private health insurance premiums for Medicaid-eligible  individuals.  Under this
method, private insurance becomes the primary payer for medical services and
Medicaid becomes the secondary payer.

J%rcha.n”ngEmployer Group Health Plan Insurance for Medicaid Rectpienfi

Effective January 1, 1991, Section 1906 of the Social Security Act mandated State
Medicaid agencies, when cost effective, to pay premiums for employer group health
plan (EGHP) insurance for Medicaid-eligible    individuals. Individuals must enroll in
the EGHP as a condition of Medicaid eligibility when a State determines it is cost
effective for them to do so. Section 1906 also requires that States use EGHP fee
schedules rather than Medicaid fee schedules when paying deductibles and
coinsurance.

We surveyed the 50 States and District of Columbia to determine State practices                    for
paying EGHP premiums.     We completed our data collection April 30, 1993.

FINDINGS

Most States have not purchased EGHP insurance for iWedicaid-eligMe             individual

  �    Eighteen   States had paid EGHP     premiums    for Medicaid-eligible      individuals.

  �	   Only 1 of the 18 States that paid EGHP premiums          also used the EGHP            fee
       schedule to pay deductibles and coinsurance.

  �    One State had begun a pilot program,      but had not yet purchased         insurance.

  �	   Thirty States had not implemented     Section   1906 at all, and two States did not
       respond to our survey.




                                             1
Substantial   savings rex.dt from pu~hasing   EGHP insurance for Medicaid-eli@le
individual

Seven of    the 18 States that purchased EGHP insurance had conducted cost/benefit

analyses.    Officials from five of the seven reported a savings of about $2.7 million

resulting   from private insurance companies having paid for medical care that

otherwise    would have been paid by Medicaid.       Of the remaining two States, one

reported    saving $24 for every $1 spent, and the other saved about $12 for every $1

spent.


We estimated that $32,000,000 in Federal and State Medicaid funds could be saved

annually if all States purchased EGHP insurance for Medicaid-eligible   individuals

when cost effective to do so. We based our estimate on cost/benefit figures provided

by four of the seven States that had conducted cost/benefit analyses. Data from the

other three States were not complete enough to use in our calculations.    We

calculated a weighted average savings per person per year for the four States and

determined the four States’ ratio of savings to Medicaid recipients.  We then used that

ratio to compute potential savings.


Compliance     with current legidation could reduce potential savings resulting from EGHP
insurance

Seventeen of the 18 States that purchased EGHP insurance for Medicaid-eligible
individuals did not use the EGHP fee schedule to pay deductibles and coinsurance.
Instead, they used their established Medicaid fee schedules. They did so because (1)
the EGHP fee schedule is higher (more costly to Medicaid) than State Medicaid fee
schedules, and (2) using the EGHP fee schedule would require unnecessarily high
administrative  expense.

RECOMMENDATIONS

We have two recommendations         that could increase   cost savings from EGHP,

1.	     The Health Care Financing Administration   (HCFA) should continue to strongly
        support States implementing Section 1906 of the Social Security Act. HCFA
        can do so by transferring technology horn States that have developed systems
        and procedures for 1906 programs to States without such systems and
        procedures.

2.	     HCFA should propose legislation that allows States to pay EGHP deductl%les
        and coinsurance using Medicaid fee schedules rather than EGHP fee schedules.




                                                ii
AGENCY     COMMENTS

The Assistant   Secretary for Management and Budget (ASMB)        and the HCFA
Administrator   commented on our draft report.

ASMB remarked that HCFA’S Office of the Actuary estimated $230 million in
Medicaid savings in 1994 if States purchased EGHP insurance for eligible individuals
when cost effective. The methodologies      used for HCFA’S estimated savings and our
estimate differ, and both have limitations.    Our estimate is based on actual experiences
of four States. It is possible that those States are different in some important ways
from the rest of the nation. HCFA’S estimate is based on census data and certain
assumptions about the extent to which Medicaid recipients have access to EGHP
insurance that is cost effective for States to purchase.   Therefore, HCFA’S estimate
represents theoretical savings.

HCFA agreed with our recommendation          that they should continue to strongly support
States’ implementation    of Section 1906. However, they deferred comment on our
recommendation     that HCFA should propose a legislative change, noting that the
requirements   of Section 1906 of the Social Security Act may change under the
proposed health reform plans Congress is presently considering.       We believe HCFA
should closely watch legislative activity, and at the appropriate   opportunity, propose
the necessary legislative change if it is not superseded by the broader legislative
reform. Revising legislation would likely be an incentive for States to implement an
EGHP program.




                                             ...
                                             111
                       TABLE                     OF CONTENTS



EXECUTIVE          SUMMARY


INTRODUCTION .           .. . . . . . . . . . . . . . .     . . . . . . . . . . . . . . . .. . . . . . . . . . .. . .. . 1


FINDINGS

     Few States Purchased           EGHP        Insurance       . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4

     Substantial    Savings Resulted          from Purchasing           EGHP       Insurance         . . . .. . . . . . . . 6

     Current     Legislation     Could Reduce          Potential      Savings        . . . . . . . . . . . . . . . . . .. . 8


RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10


AGENCY         COMMENTS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


TABLE

1.   States Paying Private         Insurance       Premiums          . . . . . . . . . . . . . . . . . . . . . . . . . . ..4


APPENDICES

     Profile of States Paying Premiums                 for EGHP          . . . . . . . . . . . . . . . . . . . . . . . . A-1

     Projected     Savings     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   B-1

     Agency Comments             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   C-1
                            INTRODUCTION


PURPOSE

To determine the extent State Medicaid agencies pay employer             group healths plan
insurance premiums for Medicaid-eligible individuals.

BACKGROUND

Medicaid &ogram

The Medicaid program, authorized by Title XIX of the Social Security Act, provides

health care coverage for specified individuals who have low incomes and few assets.

States administer the Medicaid program under Federal laws and guidelines.

Generally, States pay health care providers who treat and provide care to Medicaid-

eligible individuals.    States set their own fee schedule, or payment rate, for medical

services provided to Medicaid-eligible      individuals. Health care providers who accept

Medicaid-eligible     patients agree to treat them for the rate established by a State.


The Federal government pays a percentage of Medicaid benefits, based on a State’s

per capita income. Generally, poorer States receive a larger Federal contribution than

affluent States. In Fiscal Year 1993, the Federal share ranged from 50 percent to 79

percent.  Within the Department   of Health and Human Services, the Health Care

Financing Administration   (HCFA) has Federal responsibility for Medicaid.


Concern Over Medicaid      Cosb

Expenditures   for Medicaid benefits have grown dramatically in recent years. From
Calendar Year 1988 through 1991, Federal and State spending rose 49 percent,
increasing from $59 billion to $88 billion.l

The rate of growth in Medicaid expenditures is a major concern to both Federal and
State governments.    Both are seeking ways to curb spending.    One method is to pay
private health insurance premiums for Medicaid-eligible   individuals. Under this
method, private insurance becomes the primary payer for medical services and
Medicaid becomes the secondary payer.




   ‘Health Care Financing Administration,   HCE4 1992 Statistics, September 1992


                                                  1
Purchast”ng Wvate     Iksurance for Medicaid Reapients

Two sections of the Social Security Act allow States to use Medicaid               funds to pay
private insurance premiums for Medicaid-eligiile   individuals.

For several years, Section 1905(a) of the Social Security Act has allowed States to use
Medicaid funds to pay a Medicaid recipient’s private insurance premiums.     States may
choose this option when a Medicaid-eligible  individual is expected to have high
medical costs. When States choose this option, private insurance pays for the majority
of medical care, and Medicaid pays the amount that exceeds the third party’s liability
up to the Medicaid rate. States use their established Medicaid fee schedule to
determine the amount they will pay toward the difference.

The Omnibus Budget Reconciliation       Act of 1990 established Section 1906 of the
Social Security Act. Effective January 1, 1991, Section 1906 required State Medicaid
agencies, when cost effective, to pay premiums, deductibles and coinsurance for
employer group health plan (EGHP) insurance for Medicaid-eligible        individuals.
Individuals must enroll in an EGHP as a condition of Medicaid eligibility when a State
determines it is cost effective for them to do so. When a non-Medicaid-eligible       family
member must be enrolled in an EGHP in order for the Medicaid-eligible          member to
receive coverage, the State must pay the premiums (not deductibles and coinsurance)
for the non-eligible member.     Section 1906 also required that States use an EGHP fee
schedule rather than their established Medicaid fee schedule when paying deductibles
and coinsurance.

States still have the option of following the payment guidelines of Section 1905(a) and
pay premiums for insurance other than EGHP--for example, Medicare supplements
and cancer policies. States may pay EGHP premiums and use the Section 1905(a)
payment guidelines if they have determined it is not cost effective to use Section 1906
guidelines.

tirchasihg   l?n”vate Ikwrance    For Non-Medicaid      Recipients

A third part of the Social Security Act, Section 1902, allowed States to use Medicaid
funds to pay EGHP premiums for non-Medicaid-eli@de         individuals.

The Consolidated    Omnibus Budget Reconciliation    Act (COBRA) of 1985 required
employers to provide individuals an opportunity to continue their group health
insurance when they leave employment or reduce hours of employment.          Under
Section 1902, States can pay EGHP insurance       remiums--but not deductibles and
coinsurance--for certain low income individuals 1?when they consider it cost effective.
States may use this option to purchase EGHP insurance for individuals who (1) have



    21ndividuals who are not eligible for Medicaid, but have incomes below the poverty level and assets
less than twice the maximum allowed for Supplemental Security Income (SS1) eligibility.


                                                   2
health problems that are expensive        to treat, and (2) are likely to become      Medicaid-
eligible in the future.


SCOPE

This report focuses on the extent that State Medicaid agencies (1) purchase EGHP
insurance for Medicaid-eligible  individuals when cost effective to do so, and (2) pay
deductibles and coinsurance at the EGHP rate. We surveyed all 50 States and the
District of Columbia to identify any private insurance States purchased with Medicaid
funds in State Fiscal Year (FY) 1992. This report reflects what States told us they
were doing as of April 30, 1993. We did not conduct a compliance review.


METHODOLOGY

We mailed a standardized    questionnaire to all 51 jurisdictions     on July 15, 1992. A
total of 49 States returned completed questionnaires     by December 1992. As needed,
we conducted telephone interviews with State Medicaid staffs to obtain clarification
and elaboration on responses to the mailed questionnaire.        Florida and Ohio did not
respond to the survey.

To review State program operations, we visited two State agencies              that reported they
had implemented   Section 1906. One State, Iowa, implemented    the             program in July
1991. The other State, New York, implemented    a program making                it mandatory to
pay insurance premiums in 1982--nine years prior to the enactment               of Section 1906.

We interviewed staffs from HCFA and the American Public Welfare Association
(APWA) to get their opinion on State implementation   of Section 1906. APWA is an
advocacy group representing State welfare and Medicaid agencies.

We conducted this inspection in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




    3For convenience in summarizing survey results, we counted the District of Columbia as a 51st
State.


                                                  3

                                        FINDINGS

MOST STATES HAVE               NOT PURCHASED                EGHP         INSURANCE          FOR
MEDICAID-ELIGIBLE              INDIVIDUALS

Section 19060fthe     Social Security Act required State Medicaid agencies, when cost
effective, to pay (1) EGHP premiums, and (2) deductibles and coinsurance using
EGHP fee schedules.

     �	     Eighteen States paid EGHP insurance premiums for Medicaid-eligible
            individuals.   One other State had implemented a pilot EGHP program, but had
            not paid any premiums (see Table lj. Appendix ‘A shows a piofiie of each of
            the 19 States.

     �	     Only 1 of the 18 States that paid EGHP insurance premiums also used the
            EGHP fee schedule to pay deductibles and coinsurance.       The other 17 States
            used their Medicaid fee schedules when paying coinsurance and deductibles.
            Officials from 2 of the 17 States told us that they will pay deductibles and
            coinsurance at the EGHP rate if a provider requests it. However, at the time
            of our study no providers had done so.

     �	     Thirty States had not implemented          Section        1906 at all, and two States did not
            respond to our survey.

                                              TABLE 1

                    STATES      PAYING      EGHP INSURANCE                   PREMIUMS


          SZAZZ?     MEDIG41D            SZAZE           MEDICALD                Sz’rrE        MEDICAID
                    mwpm~                               RECIPIEJ@                             RwIpml

 Alabama                 2           Montana3
               202
            0regon3              1257

  Colorado               50          Nebraska
                   40
         S. Carolina3         43

 Connecticut             29          Nevada
                     5
          S. Dakota             1
 Idaho2                 115          N. Hampshire-y
             33
          Tennessee            5
 Iowa3                  1417         New Jers#
                  77
          Vermon#             20

 Minnesota              3000         New Yorl$
             20,000
           Washington          199

 lApprom”matenumber of Medicaid individuals covered under Section 1906. Virginiahas an EGHP pi[otprogram
 underway. We excluded Virginiaji-om the table because the State had not yet begunpayingpremiums at the time
 thk report wm writ~en.


II2Statethat routinelypays deductiblesand coinsuranceusing EGHP fee schedules.

  3Statesthat also pay insurancepremiums under Section 1905(a). Datafi-om New Jersey,New York and South
  Carolina did not distinguishnumber of individuals covered by Sections 1905(a) and 1906.




                                                       4

7he Extent of EGHPInsurance         Coverage Varied Among States

As shown by Table 1, the number         of individuals   for whom States paid EGHP   varied
widely among States.

Many factors can contribute to the variation in purchasing EGHP insurance among
States. For example, State financial condition and commitment to the EGHP program
could partly account for the differences among States. While we did not compare one
State to another in terms of providing EGHP coverage, we observed three factors that
partly accounted for extent of EGHP coverage provided in a given State.

  �	   Date of Implementation   - At the time of our survey, most States had operated
       their 1906 programs less than two years. To start programs, States usually pay
       premiums for only a few individuals.  As problems are identified and solved,
       States begin purchasing insurance for more individuals.  Thus, States with older
       programs usually had more individuals included.

  �	   Dem-ee of Automation - States that have computer technology to perform
       functions such as determining cost effectiveness have larger EGHP caseloads
       than States that perform such functions manually.

  �	   Dem-ee of Tar~etinR Cases - Some States target EGHP premium payments only
       for individuals they know will have high medical expenses, such as pregnant
       women. Other States determine cost effectiveness of purchasing EGHP for all
       individuals who are entitled to EGHP coverage.

Reasons for Not Purchm”ng EGHP Insurance

Officials in 18 of the 30 States4 (60 percent) that had not purchased EGHP insurance
and paid deductibles and coinsurance as required by Section 1906 said they did not do
so because of the high administrative   costs and lack of resources.

To illustrate, to purchase EGHP insurance and pay deductibles and coinsurance, a
State must first determine that it is cost effective to do so for each potentially eligible
person. Several State officials expressed particular concern over this requirement.
They said they did not have resources to obtain automated systems for determining
cost effectiveness.  Further, doing so manually is very labor intensive. At the time of
our inspection, only six of the 30 States said they had needed automation technology
to determine cost effectiveness of purchasing EGHP.

To determine cost effectiveness of purchasing EGHP, a State must compare the cost
and potential benefits of purchasing EGHP to the average Medicaid cost for a person
who had characteristics  (e.g., age, gender, class of assistance) similar to an individual



   4Excludes two States that did not respond to our survey.


                                                  5
who would be entitled to EGHP.       These calculations sometimes include examining the
medical needs of specific individuals which may require reviewing their medical
records and previous insurance claims. This analysis indicates the potential of a State
Medicaid program to save money by purchasing EGHP insurance for a specific
individual.

State officials also cited several other cost and resource           needs that have partly
prevented their implementation     of an EGHP program.               They noted that additional
staff and system resources would be needed to

  �    pay premiums     to insurance     companies,

  �    pay premiums     to individuals     when premiums        are withheld    from wages,

  �	   pay premiums for non-Medicaid-eligible              individuals   in order to enroll Medicaid-
       eligible family members,

  �    update   Medicaid   recipient     files, and

  �	   redetermine    cost effectiveness     of EGHP       when premium        and fee schedules
       change.

HCFA is aware that States are experiencing such problems implementing        EGHP
programs.   To assist States in implementation, HCFA, in conjunction with APWA,
conducted a workshop on Section 1906 at the 1991 National Medicaid Management
Information System (MMIS) / Third Party Liability (TPL) Conference.        The 1993
National Conference included three workshops in which five States that have
implemented    EGHP programs shared their experiences.       In 1992, HCFA regional
offices conducted conferences for the States in their respective regions. Section 1906
was an agenda topic at each regional conference.     In addition, HCFA’S “TPL Trends”
newsletter highlighted Iowa’s and Idaho’s EGHP programs in the September        1992
issue. HCFA continues to provide technical assistance to States on an ongoing basis
and is monitoring State performance    through System Performance     Reviews and
Management     Reviews.


SUBSTANTIAL   SAVINGS           RESULT FROM                PURCHASING          EGHP   INSURANCE
FOR MEDICAID-ELIGIBLE             INDIVIDUALS

Officials from the 18 States that had purchased EGHP insurance for Medicaid-eligible
individuals said they had realized substantial savings. The savings resulted because
private insurance companies now pay for medical care that otherwise would have been
paid by Medicaid.    Generally, the difference between what Medicaid would have paid
for medical care and what it did pay in EGHP insurance premiums is considered a
savings to the Medicaid program.




                                                      6

Repotied   Savings by States with EGHP programs

Seven of the 18 States that purchased EGHP insurance for Medicaid-eligible

individuals had conducted cost/benefit analyses of their programs.  Officials from five

of the seven States reported about $2.7 million in savings during Fiscal Year 1992.

The remaining two States had not computed total savings, but they reported

substantial cost benefits from purchasing EGHP insurance for Medicaid-eligible

individuals. One reported saving $24 for every $1 spent, and the other about $12 for

every $1 spent.


Other States had not completed cost/benefit analyses, but they provided anecdotal

examples indicating substantial savings. One State Medicaid official, for example, was

in process of completing a cost/benefit analyses. This official had already identified

one individual for whom the State paid EGHP insurance and saved $97,000. This

savings alone almost equaled the State’s total investment in EGHP insurance.


Potential Savings Resulting jiom a Nationwide    EGHP I?rogram

We estimated that $32 million in Federal and State Medicaid funds could be saved

annually if all States purchased EGHP insurance for Medicaid-eligible    individuals

when cost effective to do so. (The 90 percent confidence interval for our nationwide

estimate of savings is $15,736,000 to $48,816,000.)  We based our estimate on the

cost/benefit figures provided by four of the seven States that had completed cost/

benefit analyses. We did not include the cost/benefit studies of the other three States

in our analyses because they did not have adequate information.    Specifically, they did

not have the number of months that they had purchased EGHP per individual. Thus,

we could not use their EGHP experience in our savings calculation.


our estimate of $32 million is a much lower estimate than the estimate prepared by

the HCFA Office of the Actuary. HCFA estimated that $230 million savings would

result in 1994 from purchasing EGHP insurance.     The methodologies    used for HCFA’S

estimated savings and our estimate differ, and both have limitations.   Our estimate is

based on actual experiences in four States. It is possible that those States are

different in some important ways from the rest of the nation. HCFA’S estimate is

based on census data and certain assumptions about the extent to which Medicaid

recipients have access to EGHP insurance that is cost effective for States to purchase.


Appendix B contains (1) our methodology and assumptions for estimating the savings

that would result from a nationwide EGHP program, and (2) a short description of

the methods HCFA used to determine savings.





                                            7

COMPLIANCE   WITH CURRENT   LEGISLATION COULD REDUCE
POTENTIAL  SAVINGS RESULTING   FROM EGHP INSURANCE

Currently, Section 1906 of the Social Security Act requires that when cost effective,
States purchase EGHP insurance for Medicaid-eligible      individuals and use an EGHP
fee schedule to pay deductibles and coinsurance.   However, 17 of the 18 States that
purchased EGHP insurance for Medicaid-eligible     individuals in their States did not use
the EGHP fee schedule as required to pay deductibles and coinsurance.         Instead, they
used their established Medicaid fee schedules.   Thev.� did so because (1) the EGHP fee
schedule is higher (more costly to Medicaid) than State Medicaid fee’ s~hedules, and
(2) using the EGHP fee schedule would require unnecessarily high administrative
expense.

The following hypothetical example shows the difference in Medicaid cost sharing
obligations using an EGHP fee schedule and a Medicaid fee schedule.     Further, it
shows that using the required EGHP fee schedule could reduce potential savings
resulting from purchasing EGHP insurance for Medicaid-eligible  individuals.




       A medical service costs $100. The EGHP allows $100 for the service and
       pays 80 percent ($80). The State’s Medicaid fee schedule allows $90 for
       the service.

       Using the EGHP’s      fee schedule,   ~edicaidk      payment   for the coinsurance
       would be $20.


               $100 Allowed by EGHP          fee schedule
              -~    Paid by Insurance
              $20   Medicaid’s    Payment    for coinsurance

       Using the Medicaid fee schedule, Medicaidk           payment for the coinsurance
       would be $10.

               $90 Allowed   by A4edicaid’s     fee schedule
              -&    Paid by Insurance
              $10 Medicaid’s     Payment     for Coinsurance



Although this hypothetical example illustrates a Medicaid savings of $10, State officials
reported much greater differences usually exist between the Medicaid and EGHP fee
schedules.  Frequently when using the Medicaid fee schedule, Medicaid does not have
any cost sharing obligation. This situation results because the amount paid by the
EGHP insurance is sometimes more than the amount allowed by a State Medicaid fee
schedule.



                                                  8

State officials told us the administrative   costs of using an EGHP fee schedule to pay
claims for deductibles and coinsurance is prohibitive because those claims must be
paid manually.     States said they cannot simply add EGHP fee schedules to their
automated systems. State systems are designed for the State Medicaid fee schedule.
Those systems will not accommodate         EGHP fee schedules which vary by plan. There
is no single EGHP fee schedule at which to program State systems. It is possible for
each EGHP policy to have a different fee schedule. Therefore, a State like Minnesota
may need a different automated program for each policy held by the 3000 recipients
enrolled in EGHPs.       If the State did not have an automated system to process EGHP
claims for deductibles and coinsurance, staff would have to process EGHP claims
manually.




                                            9

                   RECOMMENDATIONS

States are struggling to develop ways to curb the escalating costs of Medicaid benefits.
Section 1906 programs have produced savings for those States that have implemented
them; however, 170f those 18 States are paying deductibles and coinsurance using
Medicaid fee schedules.    If States hadtobear  theadministrative    costs ofusing EGHP
feeschedules,   thesavings  would be reduced. Thecosts     ofstaying abreast of changes
in EGHP fee schedules and paying deductibles and coinsurance manually are
prohibitive.

Further, using EGHP fee schedules could create inequitable treatment among
Medicaid recipients.  Higher payments would be made for those recipients for whom
States pay premiums than for other Medicaid recipients.     Physicians are likely to
prefer treating Medicaid recipients for whom States are paying EGHP premiums to
get the higher payment.   This could limit the choice of providers available to other
Medicaid recipients.

As more States implement and expand 1906 programs, greater Medicaid savings will
be realized. We have two recommendations which will help accomplish this objective.

1.	    HCFA should continue to strongly support States implementing     Section 1906 of
       the Social Security Act. They can do so by transferring technology from States
       that have developed systems and procedures for 1906 programs to States
       without such systems and procedures.

2.	    HCFA should propose legislation that allows States to pay EGHP deductibles
       and coinsurance using Medicaid fee schedules rather than EGHP fee schedules.




                                            10

                      AGENCY                 COMMENTS

The Assistant    Secretary for Management and Budget (ASMB) and the HCFA
Administrator    commented on our draft report. Appendix C shows the full text of their
comments.

ASMB remarked that HCFA’S Office of Actuary estimated much larger Medicaid
savings than we did if States purchased EGHP insurance for eligible individuals when
cost effective. We compared HCFA’S methodology for estimating savings to the
methodology we used. Both methods had limitations.    We revised our draft report to
show both HCFA’S and our estimates and include a comparison of the two
methodologies.   (See page 7 and appendix B.)

HCFA agreed with our recommendation          that they should continue to strongly support
States’ implementation    of Section 1906. However, they deferred comment on our
recommendation     that HCFA should propose a legislative change, citing that the
requirements   of Section 1906 of the Social Security Act may change under the
proposed health reform plans Congress is presently considering.       We believe HCFA
should closely watch legislative activity, and at the appropriate   opportunity, propose
the necessary legislative change if it is not superseded by the broader legislative
reform. Revising legislation would likely be an incentive for States to implement an
EGHP program.

In response     to HCFA’S technical   comments,     we made appropriate   revisions   to the
report.




                                                  11

                                     APPENDIX                      A

                PROFILE      OF STATES PAYING PREMIUMS                      FOR EGHP
                                    As of April 30, 1993

      STATE           LENGTH OF             DETERMINING       COST EFFECI’IVEITES!%
 (Approx. No. In      TIME WITH                                                               BENEFTT
  1906 Program)       PROGRAM               HOW?           BY WHOM?            FOR?            STUDY

Afabama (2)                2 Years          Manually      State Office       Recipients             Yes

Colorado (50)              2 Years        Computer &      State Office       Recipients             Yes
                                           Manually

Connecticut (29)           3 Years          Manually      State Office      Applicants &            No
                                                                             Recipients

Idaho (115)                2 Years        Computer &      State Office      Applicants &            No
                                           Manually                          Recipients

Iowa (1417)                3 Years        Computer &      State Office       Recipients        Planned
                                            Manually

Minnesota (3000)           3 Years          Manually         Local &        Applicants &            Yes
                                                          State Offices      Recipients

Montana (202)              2 Years          Manually      State Office      Applicants &            Yes
                                                                             Recipients

Nebraska (40)              2 Years        Computer &      State Office      Applicants &            No
                                           Manually                          Recipients

Nevada (5)                 2 Years          Manually      State Office       Recipients             No

New Hampshire               1 Year          Manually         Local &          Recipients            Yes
(33)                                                       State Offices

New Jersey (77)            2 Years          Manually      State Office      Applicants &            Yes
                                                                             Recipients

New York (20,000)          3 Years*       Computer &          Local         Applicants &            No
                                           Manually           Offices        Recipients

Oregon (1257)              2 Years          Manually         Local &         Recipients             No
                                                           State Offices

South Carolina (43)        2 Years          Manually      State Office      Applicants &            Yes
                                                                             Recipients

South Dakota (1)           2 Years          Manually      State Office        Recipients            No

Tennessee (5)              2 Years          Manually      State Office       Recipients             No

Vermont (20)              Over 2 Yrs.       Manually      State Office        Recipients            No

Virginia                      Piloting Program in Two Counties - All Procedures Not Yet Developed

Washington (199)          Over 3 Yrs.     Computer &      State Office      Applicants &            No
                                           Manually                          Recipients

*New York has had a State program making it mandatory to pay EGHP premiums since 1982.



                                                   A-1

                                 APPENDIX                      B


PROJECllZD SAVINGS IF ALL STATES PURCHASE    AVAILABLE    EMPLOYER
      GROUP HEALTH PIAN INSUR4NCE      FOR MEDICAID-ELIGIBLE
                           INDIVIDUALS

                                        OIG Methodolo~

Introduction

We estimated that $32,276,000 in Federal and State Medicaid funds could be saved
annually if all States purchased employer group health plan (EGHP) insurance for
Medicaid-eligible   individuals when cost effective to do so. This figure includes the
amount States with 1906 programs are currently saving. We based our estimate on a
weighted average savings of $22,168 per person per year in four States.

Methods and Resulti

Using documentation   furnished by Alabama, Colorado, New Jersey, and South
Carolina, we estimated a dollar savings attributable to EGHP enrollment on a per
person per year basis. Many Medicaid recipients are enrolled for periods of less than
one year. Thus, we converted the data to a standard rate per person year for
comparison purposes.   The following table presents the data we used.


   STATE             MEDICAID         MONTHS          ES’lTMATED        PER PERSON
                    REcrPIEN’N       COVERAGE          SAVINGS           PER YEAR

II Colorado     I        50      I      145      I      $104,612    I      $8,643    II

  New Jersey             66             467           $1,300,000          $33,405

  S. Carolina            43             237             $395,751          $20,038

  Alabama                 2             34              $100,000          $35,294




The unweighed      average of the savings per person per year is $24,345 (90 percent
confidence interval -- $14,083 to $34,606). Using the number of recipients per State,
the weighted average savings per person per year is $22,168 (90 percent confidence
interval -- $18,222 to $26,114). We feel a weighted average, especially since it is more
conservative, is more appropriate    than a simple average due to the wide distribution
of the number of recipients in the four States. (The two Alabama recipients represent
only one percent of the weighted data.)

Each of the States included in our analysis showed positive savings under their
respective EGHP programs.     However, the data furnished by the States showed


                                                B-1
significant variation, indicating that only certain segments   of their respective   Medicaid
populations had potential for EGHP enrollment.

The Health Care Financing Administration’s      Medicaid Bureau furnished data on the
number of full year and part year recipients and benefit payments for FY 1992. We
converted that data to person years of experience nationally and for the four States we
used as a basis for our analyses. We assumed that the savings the four States reported
to us represented  all of the savings they achieved for one full fiscal year. We further
assumed that the same level of savings could be achieved nationwide as were achieved
in the average of the four States if all States had an EGHP program.

The total benefit payments for FY 1992 were $91.48 billion for 27,754,493 person
years of Medicaid experience.    The four States included in our analyses represented
$5.82 billion in payments and 1,634,097 person years experience.    Using ratio estimates
of the savings per person years experience, we calculated that $32,276,000 (90 percent
confidence interval -- $15,736,000 to $48,816,000) might be saved by the Medicaid
program should a similar EGHP program be instituted nationwide.


Conclusk”on

Because of the variability in the number of Medicaid recipients in the four States, the
precision estimate of our national savings projection is about 50 percent.   Potentially
the four States represent a biased subset of the Medicaid population.     However, we
believe our analyses provide a reliable estimate of potential savings in Medicaid
through the EGHP program.




                                    HCFA    Methodolo~

HCFA’S estimate of $230 million is based on census data and certain assumptions

about the extent to which Medicaid recipients have access to EGHP insurance that is

cost effective for States to purchase. Therefore, HCFA’S estimate represents

theoretical savings.


At our request, HCFA’S Office of Actuary provided        the following description    of the

methodology for estimating Medicaid savings.


        Data from the Current Population Survey (CPS) and National Medical

        Expenditure  Survey (NMES) were used to estimate the fraction of

        Medicaid recipients having access to employer-sponsored    insurance

        (ESI) but not currently enrolled in it: about 3 percent for children and

        one-half percent for adults (including the disabled).  We [HCFA]





                                             B-2

      assumed that about 75 percent of these individuals   would be subject to
      the group health enrollment requirements.

      Other major assumptions include the following. We [HCFA] assumed
      that ESI premium rates are based on utilization which is 80-90 percent
      of that of Medicaid enrollees for adults and children and 30-40 percent
      for the disabled, and that employers pay about 60-80 percent of these
      premiums on average. Employee cost sharing was estimated at 20
      percent, and the ratio of Medicaid to employer plan recognized charges
      was assumed to be about two-thirds.

Clearly, there is a large difference between the OIG and HCFA savings estimates.

We acknowledge the difficulties inherent in any estimating process for this program.

In any event, substantial savings can be achieved through stronger implementation    by

the States of the EGHP provisions.





                                          B-3

              APPENDIX                   C




                 AGENCY     COMMENTS




Assistant   Secretary   for Management       and Budget




Administrator,    Health   Care Financing     Administration




                           c-1
      DEPARTMENT OF HEALTH&        HUMAN SERVICES                   Officeof the%cmtafv


                                                                    WasMn@on, D.C.   20201
                                    Om      41993
                         ,

TO
          ..   Bryan B.     Mitchell
                  Principal        Deputy   InspectQr   General

PROM         :    Kenneth     S.    Apfel
                  Assistant        Secrets              agement   and Budget

mBJEcT       :    DRAFT Report:  ‘Medicaid Payments of Premiums for
                  Employer Group Health Insurance,” OEI-O4-91-O1O5O

We reviewed the indicated draft report and find the information

very enlightening. However, we wish to comment on the

methodology used in estimating the potential Medicaid savings.

Using data supplied by four States, the report calculates average
weighted annual per person savings ($22,168) resulting frOm
States purchasing Employer Group Health Plan (EGHP) insurance for
eligible individuals when cost effective. A ratio of the sample
data to national statistics-is used to estimate nationwide
savings of $32 million by instituting EGHP programs.
The HCFA Office of the Actuary (OACT) estimates $230 million

total Medicaid savings in FY 1994 resulting from States providing

EGHP insurance to eligible individuals when cost effective. This

estimate was included in a proposed rule sent through

Departmental clearance at the beginning of the month.

OACT used Current Population Survey data to determine the

fraction of Medicaid recipients having access to employer-

sponsored insurance but not currently enrolled. This population

was multiplied by a standard cost which had been adjusted for
private insurance rates, utilization, and cost Sharing=
We believe that the OACT estimate yields a more accurate

representation of the potential savings from providing EGHP

insurance. The OACT estimate talcesinto account the size of the

eligible population and offsetting cost factors which are the

same principles used to develop the statute. In contrast, the

OIG estimate is based solely on existing programs and has a high

probability of sampling error.

Hence, we recommend &at the methodology for estimating potential

Medicaid savings be revised to incorporate

OACT .

                                                                                          Health

                                                                                              Care
          DEPARTMENT OF HEALTH& HUMAN             SERVICES                                financing Administration



                                                                                          Memorandum
Date      WI     8199b
          Bruce C. Vlade               &b
From
                                  ~L
          Administrator

                    %Y­
Subject   Office
               ofInspector                              Payments of Premiums
                        General(OIG)DraftRepo~. “Medicaid
          for Employer Group Health Insurance” (OEI-O4-91-O1O5O)
To
          June Gibbs Brown
          Inspector

                 General



          We reviewed   the subject    draft report which examines the extent to which state
          Medicaid agencies pay employer group health plan insurance premiums for Medicaid
          eligible individuals.

          We agreewithOIG’Sfirst
                              recommendation,

                                           thattheHealthcareFinancing
                       (HCFA) continue
          Administration                       support
                                      tostrongly      Statesimplementing
section
          1906oftheSocial        Act(theAct).Sincethis
                          Security                                law,we will

                                                      isthecurrent

          continuetogivepriority          implementation
                               totheStates’                     1906oftheAct.

                                                       ofsection

          We willalsocontinuetoencourageandassist          whichhavenotyet

                                                thoseStates

          implemented this        However,
                         provision.        therequirements
                                                         undersection

                                                                     1906ofthe

          Actmay changeundertheproposed  HealthSecurity
                                                      Act.Therefore,we
are

                  commenton thesecondrecommendation,
          deferring                                  thatHCFA propose
 legislation

          thatallowsStatestopayemployergrouphealthplan(EGHP) deductibles
and

          coinsuranceusingMedicaidfeeschedules     thanEGHP fee schedules, pentig
                                             rather

          thesechanges. Several
                              technical
                                      commentsareattached

                                                         foryourconsideration.

          Thankyoufortheopportunity
                                 toreview
                                        andcomment on this
                                                         draft
                                                             report.

                                                                   please

          advise                 ourresponse.

               usifyouwishtodiscuss


          Attachment




                                                                         ...     --+
                                                          ...        .     --’   “   “!


                                                                ,,
         Comments of the Health Care Financing Administration (HCFA~
             on the Office of Inmector General’s (OIG\ Draft Rer)oti
      “Medicaid Pavments of premiums for Erndover GrouD Health bu rance”
                                [~~

Technical Comments

.=.     - The report indicates that because State systems are only designed for the
Medicaid fee schedule, a State coui~ theoretically, have a different fee schedule for
each recipient who has employer group health plan (EGHP) insurance. Therefore,
the report contends that a State would need a different automated program for each
recipient. We agree the State will need to design a separate system to accommodate
the EGHP fee schedule. However, it is not clear from the analysis that the State will
need a different program for each fee schedule.

k?      - The report  suggests
 that “using EGHP fee schedules creates inequitable
treatment among Medicaid recipients [since] higher payments would be made for
those recipients for whom States pay premiums than for other Medicaid recipients.”
We do not believe that OIG has provided data to support the implication that
Medicaid recipients who use the same Medicaid provider necessarily would receive
different treatment because one has EGHP insurance and the other does not. If
there is any disparity, it seems more likely it would be among different providers
since, admittedly, the EGHP provider receives full payment based on the EGHP fee
schedule rather than the lower Medicaid fee schedule.

We wouldsuggest
              thatifbothoftheseassertions

                                      remainintherepo~ OIG include
            ofthem. Ifthis
datainsupport                     isunavailable,
                         information         we recommendthatthese

                 fromthereport.

commentsbe omitted

